                                        NATIONAL SCIENCE FOUNDATION
                                        OFFICE O F INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS

      j                      CLOSEOUT MEMORANDUM


Case Number: A07100056                                                       Page 1of 1



    A reviewer noted similarities between a n NSF proposal1 and a proposal2 submitted
    to another agency3 and alleged plagiarism by the PI of the NSF proposal (the
    subject). The reviewer thought the subject also reviewed the other-age,ncy proposal
    because of similarities between the two proposals. The reviewer did not recall any
    specific text being copied (verbatim plagiarism), but rather similar ideas and
    techniques (intellectual theft). The reviewer acknowledged both PIS worked in the
    same research area, but thought the similarities were more than would be expected
    because of similar research.
    We compared both proposals using plagiarism software to identify overlapping text.
    There was none. We reviewed the material in both proposals. They both dealt with
    similar topics so it was not surprising there were similarities. However, given a
    similar system, it is not surprising they would both use similar math techniques to
    solve the problem. The terminology the reviewer noted was used by both PIS, but
    they used the terminology differently. Although there are similarities, they are
    somewhat general and could be the result of their common research area.
    We concluded there were enough general similarities to contact the other agency to
    learn if the subject reviewed the complainant's proposal. The other-agency proposal
    was sent to 3 researchers (2 external and 1internal) for review-none of whom were
    the subject or any of his listed collaborators or co-authors. Since the subject did not
    review the proposal, the similarities are evidently coincidental and the product of
    research i n similar areas. We conclude there is insufficient evidence to proceed
    with a n investigation. Accordingly, this case is closed.




            (redacted).
          2 (redacted).
          3 The Army Research Office.
